            DEPARTMENT
               of HEALTH
                & HUMAN
                SERVICES




                  Fiscal Year

                    2012

Office of Inspector General


   Online Performance Appendix
Introduction
The Fiscal Year (FY) 2012 Online Performance Appendix is one of several documents that fulfill
the Department of Health & Human Services (HHS) performance planning and reporting
requirements. HHS achieves full compliance with the Government Performance and Results Act
of 1993 and Office of Management and Budget Circulars A-11 and A-136 through the HHS
agencies’ FY 2012 Congressional Justifications and Online Performance Appendices, the
Agency Financial Report, and the HHS Summary of Performance and Financial Information
(SPFI). These documents are available at http://www.hhs.gov/budget/.

The FY 2012 Congressional Justifications and accompanying Online Performance Appendices
contain the updated FY 2010 Annual Performance Report and FY 2012 Annual Performance
Plan. The Agency Financial Report provides fiscal and high-level performance results. The
SPFI summarizes key past and planned performance and financial information.
                    Message from the Office of Inspector General

Since its establishment in 1976, this office has consistently achieved commendable results in
fulfilling its mission to protect the integrity of HHS programs and the health and welfare of the
American public.

OIG’s staff of more than 1,600 professionals carries out this mission through a nationwide
network of audits, evaluations, investigations, and enforcement and compliance activities
focused on HHS programs and participants. Our mission encompasses the more than 300
programs administered by HHS at agencies such as the Centers for Medicare & Medicaid
Services, National Institutes of Health, Food and Drug Administration, Centers for Disease
Control and Prevention, and Administration for Children and Families. As required by statute,
the majority of this office’s resources are directed toward safeguarding the integrity of the
Medicare and Medicaid programs and the health and welfare of their beneficiaries. Consistent
with our responsibility to oversee all departmental programs, we also focus considerable effort
on HHS’s other programs and management processes, including key issues, such as food and
drug safety, child support enforcement, conflict-of-interest and financial disclosure policies
governing HHS staff, and the integrity of departmental contracts and grants management
processes and transactions.

As HHS programs and operations continue to grow in size, scope, and complexity, it is essential
that they be simultaneously protected against threats of fraud, waste, and abuse. In FY 2010,
OIG’s contributions to safeguarding HHS programs from threats of fraud, waste, and abuse and
to promoting economy, efficiency, and effectiveness in HHS programs included:

   •   $3.8 billion in expected investigative receivables that were court ordered or agreed to be
       paid through civil settlements that resulted from cases developed by OIG investigators;

   •   $1.1 billion in audit receivables that were agreed to be pursued by HHS program
       managers as a result of OIG audit disallowance recommendations;

   •   a ratio of $16.7 to $1 expected return on investment measuring the efficiency of OIG’s
       health care oversight efforts; and

   •   120 of OIG’s quality and management improvement recommendations that HHS program
       managers accepted and agreed to implement.

This report describes OIG’s accomplishments in several key aspects. At the time of this writing,
there were no known weaknesses in the completeness or reliability of the information in this
appendix.
PAGE INTENTIONALLY LEFT BLANK
                                        FY 2012 Performance Appendix
                               U.S. Department of Health & Human Services
                                       Office of Inspector General

Section                                                                                                                               Page


Summary of Performance Targets and Results .......................................................................... 1
Performance Detail .................................................................................................................... 2
Performance Measure Tables and Performance Narrative ........................................................ 3
Agency Support for HHS Strategic Plan ................................................................................... 9
Full Cost Table........................................................................................................................... 11
Data Sources and Validation...................................................................................................... 13




                                                                i
PAGE INTENTIONALLY LEFT BLANK




             ii
Performance Appendix                                             Department of Health & Human Services
                                                                             Office of Inspector General

                      Summary of Performance Targets and Results

 Fiscal      Total        Targets With         Percentage of Targets With        Total          Percentage of
 Year       Targets      Results Reported           Results Reported          Targets Met       Targets Met

 2007          3                 3                        100%                      3               100%

 2008          3                 3                        100%                      3               100%

 2009          3                 3                        100%                      3               100%

 2010          3                 3                        100%                      3               100%

 2011          3               TBD                        TBD                     TBD               TBD

 2012          3               TBD                        TBD                     TBD               TBD

Note: The table provides an overview of OIG outcome measure targets established for each corresponding fiscal
year (FY).




                                                                                                         Page 1
Performance Appendix                                     Department of Health & Human Services
                                                                     Office of Inspector General


                                     Performance Detail

The Department of Health & Human Services (HHS), Office of Inspector General (OIG), Fiscal
Year (FY) 2012 Online Performance Appendix uses three key measures to express progress in
accomplishing OIG’s mission of combating fraud, waste, and abuse and promoting economy,
efficiency, and effectiveness in HHS programs and operations:

   •   the 3-year moving average of expected recoveries from OIG’s health care oversight
       activities that resulted in investigative receivables and audit disallowances,

   •   the 3-year moving average of the expected return on investment (ROI) from OIG’s health
       care oversight activities that resulted in investigative receivables and audit disallowances,
       and

   •   the number of accepted quality and management improvement recommendations.

These measures reflect the culmination of investigation, audit, and evaluation efforts initiated in
prior years. Moreover, these measures express OIG’s joint success and collaboration with a
network of program integrity partners at all levels of government. For example, OIG
investigators and attorneys work closely with the Department of Justice (DOJ), State Medicaid
Fraud Control Units, and local law enforcement organizations to develop cases and pursue
appropriate enforcement actions, which often include criminal or administrative sanctions and
restitution to the Federal and State Governments and other affected parties. Similarly, OIG
audits and evaluations generate findings and recommendations intended to save money and
improve programs. While OIG does not have the authority to implement these corrective
actions, OIG recommendations inform Congress and HHS program officials of potential cost
disallowances and corrective actions that may be taken to address the vulnerabilities OIG
identifies.




                                                                                             Page 2
Performance Appendix                                              Department of Health & Human Services
                                                                              Office of Inspector General


               Performance Measure Tables and Performance Narrative

Performance Measure Summary and Reporting for “Expected Recoveries”
and ROI

“Expected recoveries” resulting from OIG’s health care oversight quantify the potential financial
benefit to the Government that results directly from OIG’s work. The difference between
expected and actual recoveries is attributable to the ability to recover funds. Expected recoveries
are composed of financial receivables to the Federal Government from:

    •   successful prosecutions, court-ordered restitution, and out-of-court settlements;

    •   audit disallowances that HHS program management has agreed to recoup; and

    •   administrative enforcement actions during a given reporting period.

Once OIG calculates expected recoveries for a reporting period, an ROI estimate is calculated.
ROI is the ratio of expected recoveries to OIG’s annual operating budget; the result expresses the
potential financial benefit to the Federal Government for funding OIG oversight activities. For
example, an ROI of $10:$1 would indicate that for every $1 spent by OIG, the Federal
Government may receive $10 in financial recoveries.

For both measures, expected recoveries and ROI, performance is reported using a 3-year moving
average. This methodology takes into account the time necessary to complete complex audits
and investigations and to recover misspent funds identified during those inquiries. The 3-year
moving average also accounts for year-to-year variability and provides a more accurate depiction
of results over time.

                             Measure                FY      Target               Result 1
                 1.1.1: Expected recoveries         2012     $3,400        TBD, October 2012
                 resulting from OIG
                 involvement in health care         2011     $3,300        TBD, October 2011
                 fraud and abuse oversight          2010     $3,400     $3,782 (Target exceeded)
                 activities (dollars in millions)
                                                    2009     $3,470     $3,719 (Target exceeded)
                                                    2008     $2,623     $3,268 (Target exceeded)
                                                    2007     $2,460     $2,836 (Target exceeded)




1
  OIG has updated previously reported expected recoveries and ROI results to fully reflect previously excluded
investigative receivables. The revised results are within 1% of previously reported results and do not change OIG’s
target-achieving status.


                                                                                                           Page 3
Performance Appendix                                              Department of Health & Human Services
                                                                              Office of Inspector General


                          Measure                  FY        Target             Result 2
                1.1.2: ROI resulting from         2012       $12.3         TBD, October 2012
                OIG involvement in health
                care fraud and abuse              2011       $13.0         TBD, October 2011
                oversight activities              2010       $15.0       $16.7 (Target exceeded)
                                                  2009       $16.8       $17.6 (Target exceeded)
                                                  2008       $13.5       $16.9 (Target exceeded)
                                                  2007       $11.4       $16.5 (Target exceeded)


The expected recoveries resulting from OIG investigative and audit oversight of Medicare and
Medicaid 3 averaged $3.8 billion per year for the 3-year period from FY 2008 through FY 2010
and exceeded expected recoveries from all previous reporting periods. These results include an
average of approximately $2.9 billion in investigative receivables and $0.9 billion in audit
disallowances per year. The corresponding ROI for OIG oversight of Medicare and Medicaid
for the same 3-year reporting period was $16.7:$1. The line graph on the following page shows
the relationship between the annual and 3-year moving averages of OIG expected recoveries
from health care activities from FY 2004 through FY 2010 and estimates for FYs 2011 and 2012.




2
  OIG has updated previously reported expected recoveries and ROI results to fully reflect previously excluded
investigative receivables. The revised results are within 1% of previously reported results and do not change OIG’s
target-achieving status.
3
  OIG investigative and audit oversight of Medicare and Medicaid is also referred to as health care fraud and abuse
oversight activities.


                                                                                                           Page 4
Performance Appendix                                          Department of Health & Human Services
                                                                          Office of Inspector General




Out-year targets for expected recoveries and ROI are set on a year-by-year basis, considering
recent-year averages, estimates of current workload, and the effect of recent settlements—large
or small—which may skew the averages. This process sometimes results in conservative out-
year targets which at times are lower than the annual expected recoveries determined purely by
trend data.

For FY 2010, OIG reported expected recoveries of approximately $4.9 billion: $1.1 billion in
audit receivables and $3.8 billion in investigative receivables, which includes $577 million in
non-HHS investigative receivables resulting from OIG work (e.g., the States’ share of Medicaid
restitution). 4 Also for this FY, OIG reported exclusions of 3,340 individuals and entities from
participation in Federal health care programs; 647 criminal actions against individuals or entities
that engaged in crimes against departmental programs; and 378 civil actions, which included
False Claims Act (FCA) and unjust enrichment settlements and lawsuits filed in Federal district
court, Civil Monetary Penalties Law settlements, and administrative recoveries related to
provider self-disclosure matters.




4
  The figures reported in this section include all OIG FY 2010 expected recoveries. Only HHS health care
investigative receivables and health care audit disallowances are included in the expected recoveries and ROI
performance measures discussed in this Performance Appendix.


                                                                                                     Page 5
Performance Appendix                                     Department of Health & Human Services
                                                                     Office of Inspector General

Specific examples of OIG’s recent Centers for Medicare and Medicaid Services (CMS) oversight
work in FY 2010 include:

•   Medicare Fraud Strike Force Activities: The Health Care Fraud Prevention and Enforcement
    Action Team (HEAT), which is made up of top-level law enforcement and professional staff
    from DOJ and HHS, builds on existing partnerships to prevent fraud and enforce current anti-
    fraud laws around the country. The initiative is enhancing efforts like the Medicare Fraud
    Strike Force teams, which coordinate law enforcement operations among Federal, State, and
    local law enforcement entities in specified localities identified as vulnerable to fraud. Strike
    Forces began in March 2007 and are operating in seven major cities—Miami, Florida; Los
    Angeles, California; Detroit, Michigan; Houston, Texas; Brooklyn, New York; Baton Rouge,
    Louisiana; and Tampa, Florida. During FY 2010, Strike Force efforts in 7 cities resulted in:
    140 indictments involving charges filed against 284 defendants, who collectively had billed
    the Medicare program more than $590 million; 217 guilty pleas negotiated, 19 jury trials
    litigated, and guilty verdicts against 23 defendants; and imprisonment for 146 defendants
    sentenced to an average of more than 40 months.

•   CMS Contractors: Independent Review of Claims From the Comprehensive Error Rate
    Testing Program (CERT): OIG determined that CMS independent medical reviews of a
    subsample of Medicare claims from the FY 2008 CERT samples may not have provided
    assurance that the FY 2008 error rate was accurate. CMS’s independent medical review
    found 116 erroneous claims that CMS’s CERT contractor had not initially determined to
    be in error. Although OIG was unable to quantify the statistical effect of these results on
    the error rate, the results indicated the need for further CMS improvements in the
    Medicare error rate process. OIG recommended that CMS clarify documentation policies
    to reduce the number of differences in professional judgment, require the CERT
    contractor to obtain physician orders to support the medical necessity for diagnostic tests,
    and require the CERT contractor to develop a corrective action plan to reduce the number
    of incorrect determinations. CMS concurred with the recommendations.

•   Medicare and Medicaid Prescription Drugs: AstraZeneca Pays $520 million To Resolve
    FCA Violations: AstraZeneca, LP, and AstraZeneca Pharmaceuticals, LP (collectively,
    AstraZeneca), agreed to pay $520 million plus interest and enter into a 5-year corporate
    integrity agreement to resolve their civil FCA liability in connection with the promotion
    of the atypical antipsychotic drug Seroquel. AstraZeneca was alleged to have promoted
    Seroquel between January 2001 and December 2006 for uses that were not approved by
    the Food and Drug Administration (FDA) as safe and effective. AstraZeneca also was
    alleged to have violated the Federal anti-kickback statute by offering and paying illegal
    remuneration to doctors in connection with services rendered by the doctors relating to
    the unapproved uses of Seroquel.




                                                                                             Page 6
Performance Appendix                                       Department of Health & Human Services
                                                                       Office of Inspector General

Performance Measure Summary and Reporting for “Number of Accepted
Quality and Management Improvement Recommendations”

OIG also reports the “number of accepted quality and management improvement
recommendations” generated by OIG audits and evaluations during a reporting period. This
measure captures an important aspect of OIG’s efforts to identify and recommend corrections to
systemic weaknesses in HHS program administration and policy implementation.

When OIG completes a report that includes recommendations to disallow costs or pursue
administrative or policy improvements, HHS program managers have a fixed period of time to
concur or nonconcur with each recommendation. While some recommendations may not be
implemented because of the lack of available resources or other factors, OIG considers the
number of accepted recommendations one appropriate measure of OIG’s contribution to
improving the efficiency and effectiveness of HHS programs and operations.

During FY 2010, HHS operating and staff divisions accepted 120 of OIG’s recommendations.
This result exceeded the annual target of 110. OIG’s FY 2011 and FY 2012 workloads are likely
to result in similar numbers of recommendations and the performance targets for accepted
recommendations reflect this.

                     Measure             FY        Target               Result
             1.1.3: Number of quality   2012         123          TBD, October 2012
             and management
             improvement                2011         120          TBD, October 2011
             recommendations
             accepted                   2010         110         120 (Target exceeded)

                                        2009         73          112 (Target exceeded)

                                        2008         75          85 (Target exceeded)

                                        2007         75          88 (Target exceeded)


Summaries of the audits and evaluations that contributed to this performance measure are
included in the OIG Semiannual Reports to Congress, which are located in the “Publications”
section of the OIG Web site.

Some examples of high impact reviews and investigations completed during FY 2010 include:

   •   Challenges to FDA’s Ability to Monitor and Inspect Foreign Clinical Trials: In FY 2010,
       OIG released a report that found that in FY 2008, sponsors relied heavily on data from
       foreign clinical trials to support their marketing applications for drugs and biologics. The
       Food, Drug, and Cosmetic Act requires all new investigational drugs and biologics to
       undergo clinical trials on human subjects to demonstrate the safety and efficacy of these
       products prior to approval for sale in the United States. Sponsors may submit data from
       foreign and domestic clinical trials to support marketing applications. OIG found that 80
       percent of approved marketing applications for drugs and biologics contained data from


                                                                                            Page 7
Performance Appendix                                     Department of Health & Human Services
                                                                     Office of Inspector General

      foreign clinical trials. Further, over half of clinical trial subjects and sites were located
      outside the United States. OIG found that FDA inspected less than 1 percent of foreign
      clinical trial sites. Challenges in conducting foreign inspections and data limitations
      inhibit FDA’s ability to monitor foreign clinical trials.

  •   Failure to Comply With Appropriations and Acquisition Requirements: OIG found that
      the Centers for Disease Control and Prevention (CDC) did not comply with
      appropriations and acquisitions requirements when administering a contract and task
      orders awarded to a small business. CDC violated acquisition regulations and
      circumvented civil service laws by using contractor personnel for personal services and
      violated the bona fide needs statute by expending annual appropriations outside their 1-
      year period of availability. OIG recommended that CDC correct the administration of
      contracts used for personal services, determine whether funds expended outside the
      period of availability violated the Anti-Deficiency Act and correct any such violations,
      and ensure compliance with requirements for the obligation and expenditure of funds.




                                                                                              Page 8
Performance Appendix                                              Department of Health & Human Services
                                                                              Office of Inspector General


                            Agency Support for HHS Strategic Plan
OIG contributes to the HHS Strategic Plan directly through enforcement and compliance
activities and indirectly through its reviews and recommendations for making program
improvements that align with specific HHS strategic goals. The following table highlights the
strategic goals and objectives to which OIG’s program integrity and fraud prevention activities
correspond most directly.
                                                                                             OIG Goal 1: Make
                                                                                             a positive impact on
1. Transform Health Care                                                                     HHS programs
   1.A: Make coverage more secure for those who have insurance, and extend affordable
   coverage to the uninsured
   1.B: Improve health care quality and patient safety
   1.C: Emphasize primary and preventive care linked with community prevention
   services
   1.D: Reduce the growth of health care costs while promoting high-value, effective care
   1.E: Ensure access to quality, culturally competent care for vulnerable populations
   1:F: Promote the adoption of health information technology
2. Advance Scientific Knowledge and Innovation
   2.A: Accelerate the process of scientific discovery to improve patient care
   2.B: Foster innovation at HHS to create shared solutions
   2.C: Invest in the regulatory sciences to improve food and medical product safety
   2.D: Increase our understanding of what works in public health and human service
   practice
3. Advance the Health, Safety and Well-Being of the American People
   3.A: Ensure the safety, well-being, and healthy development of children and youth
   3.B: Promote economic and social well-being for individuals, families, and communities
   3.C: Improve the accessibility and quality of supportive services for people with
   disabilities and older adults
   3.D: Promote prevention and wellness
   3.E: Reduce the occurrence of infectious diseases
   3.F: Protect Americans' health and safety during emergencies, and foster resilience in
   response to emergencies
4. Increase Efficiency, Transparency, and Accountability of HHS Programs
  4.A: Ensure program integrity and responsible stewardship of resources                              X
  4.B: Fight fraud and work to eliminate improper payments                                            X
  4.C: Use HHS data to improve the health and well-being of the American people
  4.D: Improve HHS environmental, energy, and economic performance to promote
  sustainability
5. Strengthen the Nation’s Health and Human Services Infrastructure and Workforce
   5.A: Invest in the HHS workforce to help meet America’s health and human
  service needs today and tomorrow
  5.B: Ensure that the Nation’s health care workforce can meet increased demands
  5.C: Enhance the ability of the public health workforce to improve public health at home
  and abroad
  5.D: Strengthen the Nation’s human services workforce
  5.E: Improve national, state, local, and tribal surveillance and epidemiology capacity


                                                                                                           Page 9
Performance Appendix                                   Department of Health & Human Services
                                                                   Office of Inspector General


        OIG’s Contributions to the HHS Strategic Plan, FY 2010 Through FY 2015
The HHS Strategic Plan outlines how HHS will advance its mission of enhancing the health and
well-being of Americans. The strategic goals and objectives in the Strategic Plan correspond to
specific HHS operating divisions and the programs and initiatives they operate. Objective A
under Goal 4 of the plan—“Increase Efficiency, Transparency, and Accountability of HHS
Programs”—outlines HHS’s dedication to ensuring program integrity and responsible
stewardship of HHS resources by improving the efficiency and effectiveness of HHS programs
and by strengthening the integrity and accountability of payments to program beneficiaries.
Objective B under the same goal highlights HHS’s commitment to fighting fraud and eliminating
improper payments through provider education, data analysis, audits, investigations, and
enforcement.

OIG’s program integrity activities support the Department’s responsible stewardship of taxpayer
money, which includes combating fraud, waste, and abuse in all HHS programs. In particular,
OIG is directed by law to conduct independent and objective audits, evaluations, analyses, and
investigations to assess the effectiveness and efficiency of policy and program implementation
and to identify wrongdoers. These independent inquiries and associated recommendations
strengthen the integrity of HHS’s programs.

The following table shows that OIG assigns approximately 20 percent of its program costs to
Objective 4.A because this objective aligns most closely with OIG’s Public Health, Human
Services, and Departmentwide Issues Oversight efforts, which represent approximately 20
percent of OIG’s budget authority. Following a similar rationale, OIG assigns approximately 80
percent of its program costs to Objective 4.B because of the objective’s close link to OIG’s CMS
Oversight program, which represents approximately 80 percent of OIG’s budget authority.
While OIG has distributed its full program costs between two objectives for the purpose of
conveying commitment to specific HSS strategic goals, the results of OIG’s discrete oversight
activities often encompass more than any single HHS strategic objective by addressing threats to
the financial integrity of all HHS programs and the well-being of beneficiaries.




                                                                                        Page 10
      Performance Appendix                                                   Department of Health & Human Services
                                                                                         Office of Inspector General


                                                      Full Cost Table
                                                     (Dollars in Millions)

                                                                                     Office of Inspector General
HHS Strategic Goals and Objectives                                             FY 2010       FY 2011       FY 2012
1. Transform Health Care
   1.A: Make coverage more secure for those who have insurance, and
   extend affordable coverage to the uninsured
   1.B: Improve health care quality and patient safety
   1.C: Emphasize primary and preventive care linked with community
   prevention services
   1.D: Reduce the growth of health care costs while promoting high-
   value, effective care
   1.E: Ensure access to quality, culturally competent care for vulnerable
   populations
   1:F: Promote the adoption of health information technology
2. Advance Scientific Knowledge and Innovation
   2.A: Accelerate the process of scientific discovery to improve patient
   care
   2.B: Foster innovation at HHS to create shared solutions
   2.C: Invest in the regulatory sciences to improve food and medical
  product safety
  2.D: Increase our understanding of what works in public health and
  human service practice
3. Advance the Health, Safety, and Well-Being of the American
People
  3.A: Ensure the safety, well-being, and healthy development of children
  and youth
 3.B: Promote economic and social well-being for individuals, families,
 and communities
 3.C: Improve the accessibility and quality of supportive services for
 people with disabilities and older adults
 3.D: Promote prevention and wellness
 3.E: Reduce the occurrence of infectious diseases
 3.F: Protect Americans’ health and safety during emergencies, and
 foster resilience in response to emergencies
4. Increase Efficiency, Transparency, and Accountability of HHS
                                                                                  $290          $290         $366
Programs
 4.A: Ensure program integrity and responsible stewardship of resources            $58           $58          $73
 4.B: Fight fraud and work to eliminate improper payments                         $232          $232         $293
 4.C: Use HHS data to improve the health and well-being of the
 American people
 4.D: Improve HHS environmental, energy, and economic performance
  to promote sustainability




                                                                                                               Page 11
      Performance Appendix                                                  Department of Health & Human Services
                                                                                        Office of Inspector General


5. Strengthen the Nation’s Health and Human Services
Infrastructure and Workforce
   5.A: Invest in the HHS workforce to help meet America’s health and
   human service needs today and tomorrow
   5.B: Ensure that the Nation’s health care workforce can meet increased
   demands
   5.C: Enhance the ability of the public health workforce to improve
  public health at home and abroad
  5.D: Strengthen the Nation’s human service workforce
  5.E: Improve national, state, local, and tribal surveillance and
  epidemiology capacity
 Total                                                                           $290        $290        $366




                                                                                                           Page 12
Performance Appendix                                  Department of Health & Human Services
                                                                  Office of Inspector General


                             Data Sources and Validation

     Unique
                            Data Source                        Data Validation
    Identifier
      1.1.1      OIG data systems that track audit    Estimates of expected recoveries
                 disallowances, judicial and          are recorded in OIG data systems
                 administrative adjudications, and    when (1) program managers agree
                 out-of-court settlements             to disallow and pursue recovery of
                                                      questioned costs, (2) judicial and
                                                      administrative adjudications are
                                                      established, or (3) out-of-court
                                                      settlements are agreed upon.
      1.1.2      OIG data systems that track audit    See “Data Validation” for measure
                 disallowances, judicial and          1.1.1.
                 administrative adjudications, out-
                 of-court settlements, and the OIG
                 operating budget in a given year
      1.1.3      OIG data systems that track          OIG follows a process for
                 reports and recommendations          reporting, tracking, and validating
                                                      accepted recommendations.




                                                                                            Page 13
